IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19-963
___________
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.
___________
MOTION FOR LEAVE TO FILE THE JOINT APPENDIX PARTIALLY UNDER SEAL
___________
Pursuant to Rule 21 of this Court, petitioner respectfully
moves for leave to file the parties’ joint appendix partially under
seal.

Respondent consents to this motion.
1.

This case arises from a lawsuit filed by respondent in

2012 against petitioner and other defendants in the United States
District Court for the Eastern District of Texas. Defendants moved
to compel arbitration of respondent’s claims.

The district court

and the court of appeals denied defendants’ motions to compel on
the ground that defendants’ claim for arbitrability was “wholly
groundless.”

This court granted certiorari and vacated the court

of appeals’ judgment, holding that the “wholly groundless” doctrine contravenes the Federal Arbitration Act.

See 139 S. Ct. 524

(2019).
On remand, the court of appeals held that it, and not an
arbitrator, had to decide the question of arbitrability, notwithstanding the delegation of questions of arbitrability to the arbitrator in the arbitration agreement at issue.

The court of

2

appeals reached that conclusion because the arbitration agreement
includes a carve-out provision that exempts certain actions and
claims from arbitration.

Petitioner contends that the Arbitration

Act prohibits a court from interpreting such a carve-out provision
to require a court to decide arbitrability when the parties have
otherwise clearly and unmistakably delegated questions of arbitrability to the arbitrator.
The record in this case includes the second amended complaint
filed by respondent.

Previously, the second amended complaint was

maintained entirely under seal in the district court, the court of
appeals, and this Court.

After the court of appeals’ decision on

remand from this Court, however, a redacted version of the second
amended complaint was filed publicly on the district court’s
docket.
2.

See D. Ct. Dkt. 508.
In conjunction with the filing of petitioner’s brief,

petitioner has filed a joint appendix that includes the second
amended complaint.

Because the second amended complaint is cur-

rently maintained partially under seal in the district court, petitioner moves for leave to file the joint appendix partially under
seal in this Court. Petitioner is simultaneously filing a proposed
public version of the joint appendix, which includes proposed redactions corresponding to the material that remains under seal in
the district court.

3

Respectfully submitted.
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
August 21, 2020

